AUDIT OF SUPERFUND ACTIVITIES IN

 THE ENVIRONMENT AND NATURAL 

 RESOURCES DIVISION FOR FISCAL 

  YEARS 2006 THROUGH 2008

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 10-04

            November 2009

            SUPERFUND ACTIVITIES IN THE 

    ENVIRONMENT AND NATURAL RESOURCES DIVISION

         FOR FISCAL YEARS 2006 THROUGH 2008


                            EXECUTIVE SUMMARY


        The Comprehensive Environmental Response, Compensation and
Liability Act of 1980 (known as CERCLA or Superfund), which was expanded
by the Superfund Amendments and Reauthorization Act of 1986, established
the Superfund program to clean up the nation’s worst hazardous waste
sites. 1 CERCLA seeks to ensure that individuals or organizations responsible
for the improper disposal of hazardous waste bear the costs for their actions.
It also established the Hazardous Substance Superfund Trust Fund (Trust
Fund) to finance clean up sites when a liable party cannot be found or the
third party is incapable of paying clean up costs. The Trust Fund also pays
the Environmental Protection Agency’s (EPA) for enforcement, management
activities, and research and development.

      Executive Order 12580, issued January 23, 1987, gives the Attorney
General responsibility for all Superfund litigation. Within the Department of
Justice (DOJ), the Environment and Natural Resources Division (ENRD)
enforces CERCLA’s civil and criminal pollution-control laws. In fiscal year
(FY) 1987, EPA entered into interagency agreements with the ENRD and
began reimbursing the ENRD for its litigation costs. In recent years, EPA
authorized reimbursements to the ENRD of $26.0 million for FY 2006 and
$26.3 million for FY 2007, and $25.6 million for FY 2008 in accordance with
EPA Interagency Agreements DW-15-92194601-2 (FY 2006), DW-15­
92194601-4 and DW-15-92194601-5 (FY 2007), and DW-15-92194601-6
(FY 2008).




      1
          42 U.S.C. Chapter 103 (2008)
       The EPA and the ENRD Statement of Work required the ENRD to
maintain a system that documented its litigation costs. To this end, the
ENRD used a cost distribution system developed and maintained by a private
contractor. The system was designed to process financial data from the
ENRD Expenditure and Allotment (E&A) Reports into: (1) Superfund direct
costs by specific case broken down between direct labor costs and all other
direct costs; (2) non-Superfund direct costs; and (3) allocable indirect
costs. 2

      As required by CERCLA, the DOJ Office of the Inspector General
conducted this audit to determine if the cost allocation process used by the
ENRD and its contractor provided an equitable distribution of total labor
costs, other direct costs, and indirect costs to Superfund cases from
FYs 2006 - 2008. 3 We compared costs reported in the contractor’s
accounting schedules and summaries for these 3 years to costs recorded on
DOJ accounting records to review the cost distribution system used by the
ENRD to allocate incurred costs to Superfund and non-Superfund cases.

      We believe that the ENRD provided an equitable distribution of total
labor costs, other direct costs, and indirect costs to Superfund cases from
FYs 2006 - 2008.

       During our testing of 128 travel expenditures, however, we found
discrepancies with 11 transactions that were missing receipts supporting a
portion of the claimed travel cost, 2 transactions had the incorrect case
classification number, and 16 transactions were missing proper approvals on
travel authorizations. Therefore, we recommend that the ENRD reinforce
policies and procedures for submitting complete travel authorizations and
voucher summaries; remedy the $2,488 in unsupported travel costs; and
ensure that travel voucher numbers 3817840 and 38126128 are allocated to
the correct Superfund case number.

       2
          The E&A Report is a summary of the total costs incurred by the ENRD during the
fiscal year. The report includes all costs (both liquidated and unliquidated) by subobject
class and a final indirect cost rate calculation for the fiscal year. Other direct costs charged
to individual cases include special masters, expert witnesses, interest penalties, travel, filing
fees, transcription (court and deposition), litigation support, research services, graphics,
and non-capital equipment. Indirect costs are the total amounts paid in the E&A Reports
less direct charges and are allocated based on the direct Superfund salary costs on each
case.
       3
           We have conducted audits of ENRD Superfund Activities since 1985 and generally
have found a reoccurring discrepancy concerning missing approvals on travel expenses. In
response to our finding, ENRD issued a memorandum to section managers reminding them
of their responsibilities under the travel regulations to document approval of travel prior to
the travel being initiated.


                                               ii
                                TABLE OF CONTENTS

                                                                                               Page

INTRODUCTION .................................................................................1

    OIG Audit Approach ......................................................................... 5


FINDING AND RECOMMENDATIONS...................................................6

    Superfund Costs for FYs 2006 Through 2008 ...................................... 6

    Reconciliation of Contractor Accounting Schedules
    and Summaries to E&A Reports......................................................... 7

    Superfund Case Reconciliation .......................................................... 8

    Superfund Cost Distribution .............................................................. 9

    Conclusion .................................................................................... 16

    Recommendations ......................................................................... 16


STATEMENT ON COMPLIANCE WITH LAWS
   AND REGULATIONS ....................................................................17


APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ..................18


APPENDIX II - 2008 CASES IN SAMPLE REVIEW .............................20


APPENDIX III - FY 2006 ACCOUNTING SCHEDULES

   AND SUMMARIES ........................................................................21


APPENDIX IV - FY 2007 ACCOUNTING SCHEDULES

   AND SUMMARIES ........................................................................29


APPENDIX V - FY 2008 ACCOUNTING SCHEDULES

   AND SUMMARIES .......................................................................37


APPENDIX VI - SCHEDULE OF DOLLAR-RELATED FINDINGS ............45


APPENDIX VII - ENVIRONMENT AND NATURAL RESOURCES

   DIVISION’S RESPONSE TO THE DRAFT REPORT .........................46


APPENDIX VIII – OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT ...............................................................49

                                 INTRODUCTION

      In 1980, the Congress passed the Comprehensive Environmental
Response, Compensation, and Liability Act (CERCLA or Superfund) to clean
up hazardous waste sites throughout the United States. 1 The law addressed
concerns about the need to clean up abandoned hazardous waste sites and
the future release of hazardous substances into the environment. When
CERCLA was enacted, the Environmental Protection Agency (EPA) was
assigned responsibility for preparing a National Priorities List to identify sites
that presented the greatest risk to human health and the environment.
Waste sites listed on the National Priorities List were generally considered
the most contaminated in the nation, and EPA funds could be used to clean
up those sites. The clean up of these sites was to be financed by the
potentially responsible parties – generally the current or previous owners or
operators of the site. In cases where the potentially responsible party could
not be found or were incapable of paying clean up costs, CERCLA established
the Hazardous Substance Superfund Trust Fund (Trust Fund) to finance
clean up efforts. The Trust Fund also pays for EPA’s enforcement,
management, and research and development activities.

      Because CERCLA was set to expire in FY 1985, Congress passed the
Superfund Amendments and Reauthorization Act (SARA) in 1986. 2 SARA
stressed the importance of using permanent remedies and innovative
treatment technologies in the clean up of hazardous waste sites, provided
EPA with new enforcement authorities and settlement tools, and increased
the authorized amount of potentially available appropriations for the Trust
Fund.

       Executive Order 12580, issued January 23, 1987, gives the Attorney
General responsibility for all Superfund litigation. Within the Department of
Justice (DOJ), the Environment and Natural Resources Division (ENRD)
administers cases against those who violate CERCLA’s civil and criminal
pollution-control laws. Superfund litigation and support are assigned to the
following ENRD sections: Appellate, Environmental Crimes, Environmental
Defense, Environmental Enforcement, Land Acquisition, Natural Resources,
and Law and Policy.




      1
          42 U.S.C. Chapter 103 (2008)

      2
          SARA is incorporated into 42 U.S.C. Chapter 103 (2008)

       Beginning in FY 1987, the EPA entered into interagency agreements
with the DOJ to reimburse the ENRD for its litigation costs related to its
CERCLA activities. As shown in Exhibit 1-1, budgeted reimbursement for
Superfund litigation represented, on average, about one-third of the ENRD’s
total budget during the 22-year period from FY 1987 through FY 2008.

Exhibit 1-1: 	 omparison of the ENRD’s Appropriations and Budgeted
             C
             Superfund Reimbursements (1987 to 2008)

                                        Budgeted
                  ENRD                  Superfund               Total ENRD
   FY         Appropriations         Reimbursements               Budget
1987              $23,195,000             $11,550,000             $34,745,000
1988               26,194,000              18,473,000              44,667,000
1989                 26,456,000                22,100,000         48,556,000
1990                 34,713,000                28,754,000         63,467,000
1991                 43,683,000                32,799,000         76,482,000
1992                 49,177,000                35,607,000         84,784,000
1993                 51,445,000                34,534,000         85,979,000
1994                 53,364,000                33,809,000         87,173,000
1995                 58,170,000                33,879,860         92,049,860
1996                 58,032,000                32,245,000         90,277,000
1997                 58,049,000                30,000,000         88,049,000
1998                 61,158,000                29,963,500         91,121,500
1999                 62,652,000                30,500,000         93,152,000
2000                 65,209,000                30,000,000         95,209,000
2001                 68,703,000                28,500,000         97,203,000
2002                 71,300,000                28,150,000         99,450,000
2003                 70,814,000                28,150,000         98,964,000
2004                 76,556,000                28,150,000        104,706,000
2005                 90,856,000                27,150,000        118,006,000
2006                 93,974,000                26,319,100        120,293,100
2007                 95,093,000                26,056,000        121,149,000
2008                 99,365,000                25,594,000        124,959,000
Total           $1,338,158,000            $622,283,460         $1,960,441,460
Source: ENRD Budget History Report for FYs 1987 through 2008




                                          2

       The EPA and the ENRD Statement of Work required the ENRD to
maintain a system that documented its Superfund litigation costs.
Accordingly, the ENRD implemented a management information system
designed by FTI Rubino & McGeehin Consulting Group, Incorporated
(contractor). The system was designed to process financial data from the
ENRD’s Expenditure and Allotment (E&A) Reports into: (1) Superfund direct
costs by specific case, allocated between direct labor costs and all other
direct costs; (2) non-Superfund direct costs; and (3) allocable indirect
costs. 3

      The EPA authorized reimbursements to the ENRD of $26.0 million for
FY 2006, $26.3 million for FY 2007, and $25.6 million for FY 2008 in
accordance with EPA Interagency Agreements DW-15-92194601-2
(FY 2006), DW-15-92194601-4 and DW-15-92194601-5 (FY 2007), and DW­
15-92194601-6 (FY 2008).

       Excise taxes imposed on the petroleum and chemical industries as well
as an environmental income tax on corporations maintained the Trust Fund
through December 31, 1995, when the taxing authority for Superfund
expired. Since that time, Congress has not enacted legislation to
reauthorize the tax. Currently, the funding for Superfund is comprised of
appropriations from EPA’s general fund, interest, fines, penalties, and
recoveries generated through litigation. Consequently, the significance of
the ENRD’s Superfund litigation can be seen in the commitments and
recoveries the EPA has obtained, with the EPA receiving over $7 billion in
commitments to clean up hazardous waste sites and recovering over $5.3
billion from potentially responsible parties during FYs 1988 - 2008, as shown
in Exhibit 1-2.




       3
          The E&A Report is a summary of the total costs incurred by the ENRD during the
fiscal year. The report includes all costs (both liquidated and unliquidated) by subobject
class and a final indirect cost rate calculation for the fiscal year. Other direct costs charged
to individual cases include special masters, expert witnesses, interest penalties, travel, filing
fees, transcription (court and deposition), litigation support, research services, graphics,
and non-capital equipment. Indirect costs are the total amounts paid in the E&A Reports
less direct charges and are allocated based on the direct Superfund salary costs on each
case.


                                               3

          Exhibit 1-2: Estimated Commitments and Recoveries
                               (1988 to 2008) 4

            FY              Commitment                        Recovery
             1987              $           0                     $ 12,000,000
             1988                 10,000,000                       32,000,000
             1989                106,000,000                       73,000,000
             1990                 10,000,000                       56,000,000
             1991                186,000,000                      182,000,000
             1992                225,000,000                      211,000,000
             1993                187,000,000                      326,000,000
             1994                148,000,000                      490,000,000
             1995                117,000,000                      204,000,000
             1996                101,000,000                      338,000,000
             1997                280,000,000                      334,000,000
             1998                403,000,000                      308,000,000
             1999                386,000,000                      332,000,000
             2000                494,000,000                      153,000,000
             2001              1,418,000,000                      566,000,000
             2002                565,000,000                      277,000,000
             2003                474,000,000                      185,000,000
             2004                289,000,000                      202,000,000
             2005                647,000,000                      270,000,000
             2006                230,000,000                      146,000,000
             2007                271,000,000                      211,000,000
             2008                542,000,000                      429,000,000
       Total                   $7,089,000,000                   $5,337,000,000
      Source: ENRD Commitment and Recovery Report for FYs 1987 – 2008, and
      Interagency Agreement for FYs 2006, 2007, and 2008




      4
         Commitments are estimated funds from potentially responsible parties for the
cleanup of hazardous waste sites. Recoveries are actual funds received by EPA that include
Superfund cost recovery, oversight costs, and interest.


                                            4

OIG Audit Approach

       The objective of the audit was to determine if the cost allocation
process used by the ENRD and its contractor provided an equitable
distribution of total labor costs, other direct costs, and indirect costs to
Superfund cases during FYs 2006, 2007, and 2008. To accomplish our
objective, we assessed whether: (1) the ENRD identified Superfund cases
based on appropriate criteria, (2) costs distributed to cases were limited to
costs reported in the E&A Reports, and (3) adequate internal controls existed
over the recording of direct labor time to cases and the recording of other
direct charges to accounting records and Superfund cases.

      Appendix I contains a more detailed description of our audit
objectives, scope, and methodology.




                                      5

                FINDING AND RECOMMENDATIONS

           SUPERFUND COSTS FOR FYS 2006 THROUGH 2008

      We found that the ENRD provided an equitable distribution of
      total labor costs, other direct costs, and indirect costs to
      Superfund cases during FYs 2006, 2007, and 2008. We found
      discrepancies, however, in our testing of travel expenditures:
      11 transactions were missing receipts supporting a portion of the
      claimed travel cost, 2 transactions had the incorrect case
      classification number, and 16 transactions were missing proper
      approvals on travel authorizations. We recommend that the
      ENRD reinforce policies and procedures for submitting complete,
      accurate travel authorizations and voucher summaries; remedy
      the $2,488 in questioned travel costs; and ensure that travel
      voucher numbers 3817840 and 38126128 are allocated to the
      correct Superfund case number.

      We designed the audit to compare costs reported in the contractor’s
accounting schedules and summaries for FYs 2006, 2007, and 2008 (see
Appendices III through V) to the information recorded in DOJ’s accounting
records, and to review the cost distribution system used by the ENRD to
allocate incurred costs to Superfund and non-Superfund cases. To
accomplish this, we performed the following tests:

   •	 We compared Superfund total costs recorded as paid in the E&A
      Reports to the amounts reported as Total Amounts Paid in the year­
      end accounting schedules and summaries, and we traced the costs to
      Superfund cases.

   •	 We reviewed the ENRD’s methodology for categorizing Superfund
      cases by comparing a select number of Superfund cases to the ENRD’s
      Superfund case designation criteria. 5

   •	 We reviewed the contractor’s methodology for distributing direct labor
      and indirect costs to Superfund cases, and we compared other direct
      costs to source documents to validate their allocability to Superfund
      cases.




      5
        FY 2007 ENRD memorandum entitled Environment and Natural Resources Division
Determination of Superfund Cases provides the methodology for designating Superfund
cases.


                                         6

      We performed these steps to ensure that costs distributed to
Superfund and non-Superfund cases were based on total costs for FYs 2006,
2007, and 2008; that the distribution methodology used and accepted in
prior years remained viable; and that selected costs were supported by
evidence that documented their allocability to Superfund and non-Superfund
cases. We used the test results to determine if the ENRD provided an
equitable distribution of total labor, other direct costs, and indirect costs to
Superfund cases during FYs 2006, 2007, and 2008.

Reconciliation of Contractor Accounting Schedules and Summaries to
E&A Reports

      To ensure that the distribution of costs to Superfund and non-
Superfund cases was limited to total costs incurred for each fiscal year, we
reconciled the amounts reported in the E&A Reports to those in the
contractor’s Schedule 6, Reconciliation of Total ENRD Expenses. According
to the E&A Reports, total ENRD expenses were over $107 million in FY 2006,
over $113 million in FY 2006, and over $118 millions in FY 2008 as shown in
Exhibit 2-1.

               Exhibit 2-1: ENRD Expenses by Fiscal Year


      Description          2006         2007         2008
     Salaries            $65,129,004  $69,502,557  $69,777,976
     Benefits             16,452,346   17,197,744   17,369,364
     Travel                2,659,082    2,509,541    3,037,311
     Freight                 371,816      282,348      326,277
     Rent                 12,491,608   13,185,873   15,152,717
     Printing                 67,889      122,543       82,415
     Services              8,941,196    9,571,347   11,914,410
     Supplies                582,593      649,823      578,947
     Equipment               485,350      674,373       69,923
     Totals            $107,180,884 $113,696,149 $118,309,340
    Source: ENRD E&A Reports for FYs 2006, 2007, and 2008




                                        7

      We then reconciled the E&A Report amounts to the distributions in the
contractor’s Schedule 5, Superfund Costs by Object Classification, and
Schedule 2, Superfund Obligation and Payment Activity by Fiscal Year of
Obligation. We found that Schedule 1 through Schedule 6 reconciled to the
E&A Reports.

       After reconciling the contractor’s accounting schedules and summaries
to the E&A Reports, we reviewed the distribution of costs to Superfund
cases. Our starting point for reviewing the distribution system was to
identify and reconcile the ENRD cases as Superfund or non-Superfund. This
enabled us to extract only Superfund data from the ENRD data to compare
to the accounting schedules and summaries. The Superfund costs in
Schedule 2 of the accounting schedules and summaries for FYs 2006, 2007,
and 2008 are shown in Exhibit 2-2.

          Exhibit 2-2: Superfund Distributed Costs by Fiscal Year 6

    Cost Categories                      2006             2007               2008
 Labor                               $6,984,019         $7,486,185        $7,671,805
 Other Direct Costs                   1,904,671          2,391,153         1,196,767
 Indirect Costs                      12,669,272         13,495,691        13,453,680
 Superfund Program Expenses                   -                  -                 -
 Unliquidated Obligations             4,693,941          4,033,945         3,823,972
 Totals                            $26,251,903        $27,406,974       $26,146,224
 Source: Schedule 2 of the contractor’s accounting schedules and summaries

Superfund Case Reconciliation

       The ENRD assigned unique identifying numbers to all Superfund and
non-Superfund cases and maintained an annual database of Superfund
cases. To ensure that the contractor used the appropriate Superfund
database, we reconciled the contractor’s Superfund database to the ENRD’s
original Superfund database. The reconciliation identified 906 Superfund
cases in FY 2006, 939 cases in FY 2007, and 913 cases in FY 2008 in which
ENRD incurred costs. We also reviewed the Superfund case designation
criteria and case files to identify the method used by the ENRD to categorize
Superfund cases, and to determine if Superfund cases were designated in
accordance with established criteria.




      6
        The amounts listed in this table reflect actual reimbursements. The interagency
agreements budgeted $26.0 million, $26.3 million, and $25.6 million for FYs 2006, 2007,
and 2008, respectively.


                                            8

       We judgmentally selected 29 cases from the FY 2008 Superfund
database to test whether the ENRD staff adhered to case designation
procedures outlined in the FY 2007 memorandum, ENRD Determination of
Superfund Cases. 7 We compared the case number in the Superfund
database to the ENRD case file documents including case intake worksheets,
case opening forms, case transmittals, and e-mails. These documents
referenced laws, regulations, or other information used to categorize the
cases as either Superfund or non-Superfund for tracking purposes. We
found that all 29 cases reviewed contained proper documentation in the case
files to justify the Superfund classification.

Superfund Cost Distribution

       Since we found that the ENRD’s case identification method adequately
identified Superfund cases, we proceeded to review the system used by the
contractor to distribute direct labor, indirect costs, and other direct costs
charged to Superfund cases.

Direct Labor

       During the 3-year period under review, the contractor continued using
the labor distribution system from prior years, which we had reviewed and
accepted in prior audits. The ENRD provided the contractor with electronic
files that included employee time reporting information and bi-weekly salary
information downloaded from the National Finance Center. 8 The contractor
used the following formula to distribute labor costs monthly:

Salary Starting Point: 	 Employee Bi-weekly Salary

Divided by:	                Employee Reported Bi-weekly Work Hours

Equals: 	                   Bi-weekly Hourly Rate

Multiplied by: 	            Employee Reported Monthly Superfund and
                            Non-Superfund Case Hours

Results In:	                Distributed Individual Monthly Labor Case Cost




      7
          See Appendix II for the 29 cases we sampled.
      8
         The National Finance Center processes bi-weekly payroll information for many
federal government agencies, including DOJ.


                                            9

     For purposes of our review, we:

  •	 compared total Superfund and non-Superfund labor costs to costs
     reported in the E&A Reports for FYs 2006, 2007, and 2008;

  •	 reviewed the ENRD electronic labor files and selected salary files
     provided to the contractor and the resultant electronic files prepared
     by the contractor to summarize costs by employee and case; and

  •	 extracted Superfund case costs from the contractor files by using
     validated Superfund case numbers.

       We performed selected database matches to compare the ENRD
electronic employee time and case data against the contractor’s electronic
files used to prepare the accounting schedules and summaries, and to
identify Superfund case data. We determined total Superfund hours were
141,719 for FY 2006, 149,390 for FY 2007, and 148,748 for FY 2008. To
determine the number of Superfund cases with direct labor costs for each
fiscal year under review, we compared the ENRD Superfund billed time
electronic data, which included 906 cases in FY 2006, 939 cases in FY 2007,
and 913 cases in FY 2008 to the electronic files prepared by the contractor
and found no significant differences in the total number of Superfund cases
with direct labor costs for each fiscal year.

      Next, using the contractor’s electronic files, we determined that the
direct labor costs for Superfund cases were $6,984,019 for FY 2006,
$7,486,185 for FY 2007, and $7,671,805 for FY 2008. We traced these
amounts to the contractor’s accounting schedules and summaries, and
selected the first two bi-weekly periods in January 2007 and 2008 to review
the calculation of the effective employee hourly rates. We found the
contractor calculated the effective hourly rates in compliance with the
methodology outline on the previous page of this report.

      Overall, we were able to verify the accumulation of reported hours, the
development and application of hourly rates, and the extraction of labor
costs for Superfund cases. Therefore, we believe that this process provided
an equitable distribution of direct labor costs to Superfund cases during
FYs 2006 through 2008.




                                     10

Indirect Costs

       In addition to direct costs incurred for specific cases, the ENRD
incurred indirect costs that were allocated to all cases. These costs
included salaries, benefits, travel, freight, rent, communication, utilities,
supplies, and equipment. The contractor distributed indirect costs to
individual cases using an indirect cost rate calculated on a fiscal year basis.

      The indirect cost rate was comprised of an ENRD indirect rate and a
Superfund-specific indirect rate. To calculate the ENRD indirect rate, the
contractor subtracted the amount of direct costs from the total costs
incurred according to the ENRD’s E&A report and divided this amount by
the total direct labor costs for the period. To calculate a Superfund specific
indirect rate, the contractor identified indirect costs that support only
Superfund activities and divided these costs by the Superfund direct labor
costs for the period. The rates for FYs 2006, 2007, and 2008 are shown in
the Exhibit 2-3.


             Exhibit 2-3: Indirect Cost Rates by Fiscal Year

             Category                          2006          2007          2008
  ENRD Indirect Rate                            180.1%        178.9%       174.3%
  Superfund Specific Indirect Rate               35.4%         28.7%        23.8%
   Combined Indirect Cost Rate                  215.5%        207.6%       198.1%
Source: Schedule 4 of the contractor’s accounting schedules and summaries, percentages
rounded to nearest tenth percent

      Using the E&A Reports and the contractor’s electronic files, we
reconciled the total indirect amounts to Schedule 4, Indirect Rate
Calculation, to ensure that the contractor used only paid costs to accumulate
the expense pool. We determined that the total amount of indirect costs for
FY 2006 was $63,973,744, the same as the contractor’s calculation. We also
determined that the total amount of indirect costs for FY 2007 was
$67,507,752 compared to the contractor’s calculation of $67,507,750 ($2.00
variance). In addition, we determined that the total amount of indirect
costs for FY 2008 was $69,109,696 compared to the contractor’s calculation
of $69,109,699 ($3.00 variance). These nominal variances had no effect on
the indirect cost rates, and we believe that the indirect expenses calculated
by the contractor are materially accurate. Therefore, we found that this
process provided for an equitable distribution of indirect costs to Superfund
cases during FYs 2006 through 2008.




                                         11

Other Direct Costs

     The other direct costs incurred by the ENRD and distributed to
Superfund during FYs 2006, 2007, and 2008 are presented in Exhibit 2-3.

         Exhibit 2-3: Superfund Other Direct Costs by Fiscal Year

   Subobject Code and
      Description                         2006               2007              2008
1153 - Special Masters
Compensation                                   $8,964          $29,127            $9,350
1157 - Expert Witness Fees                  1,478,616        1,978,963           744,917
2100 - Travel and
Transportation                                326,786          293,620           395,992
2411 - Court Transcripts                        5,058            5,540             6,110
2499 - Printing and
Reproduction, All Other                            403               35              246
2501 - Filing Fees                                  48              110            1,083
2508 - Reporting and
Transcripts - Deposition                         61,128         81,594            35,124
2510 - Reporting and
Transcripts - Court                                   -             150            1,953
2529 - Litigation Support                        21,304               -                -
2557 - Litigation Graphics                          507           1,010              920
2563 - Interest Penalties ­
Government                                            -                  4             -
2598 - Miscellaneous Litigation
Expenses                                       1,857            1,000              1,072
Totals                                   $1,904,671       $2,391,153         $1,196,767
Source: The contractor’s electronic files for FYs 2006, 2007, and 2008

      As part of our audit, we selected the following four FY 2008 other
direct cost subobject codes to test.

      1153   –   Special Masters Compensation

      1157   –   Expert Witness Fees

      2100   –   Travel and Transportation

      2508   –   Reporting and Transcripts – Deposition


      For FY 2008, these four subobject codes comprised 92 percent of the
transaction universe (596 transactions) and 99 percent of the FY 2008 other
direct cost expenditures ($1.18 million). We used stratified sample design
with an overall sample ratio of 33 percent to obtain estimates of the
exceptions. We reviewed 100 percent of transactions in one stratum that
consisted of high-dollar transactions within these subobject codes. From
each of the remaining strata, we selected a random sample of transactions


                                           12

for review. In total, we reviewed 182 transactions totaling approximately
$686,719, as detailed in Exhibit 2-4:

                      Exhibit 2-4: Other Direct Cost Tested
       Subobject                                      Number of      Dollar
       Code                  Descriptions            Transactions   Amount
        1153            Special Masters                        5      $9,350
                        Compensation
        1157            Expert Witness Fees                  31      498,191
        2100            Travel and
                        Transportation                      128      159,274
        2508            Reporting and
                        Transcripts - Deposition            18         19,904
          Totals                                           182      $686,719
       Source: OIG other direct costs sample

       We designed our review of other direct costs transactions to determine
if the selected transactions included adequate support based on the following
four attributes:

   •	 subobject code classification – verified that the correct subobject code
      was used to classify the cost;

   •	 Superfund/non-Superfund case classification – verified that the case
      number appearing on the documents matched the case number in the
      Superfund database;

   •	 dollar amount – verified that the dollar amount listed in the other
      direct costs database matched the amounts on the supporting
      documentation; and

  •	    proper approval – verified that the proper approval was obtained on
        the vouchers paying the other direct costs.

      Our tests resulted in no exceptions in the Special Masters
Compensation, Expert Witness Fees, and Reporting and Transcripts –
Deposition subobject codes. However, our test of Travel and Transportation
(subobject code 2100) revealed differences between the information
provided to us and the supporting documentation. While we found all
128 transactions we reviewed had been appropriately been classified as
subobject code 2100 - travel, we noted that 11 transactions were missing
required receipts supporting a portion of the claimed travel cost,
2 transactions had the incorrect case classification number, and


                                               13

16 transactions were missing proper approvals (such as signatures and
dates).

     Missing Required Receipts

      During our test, we compared the dollar amount allocated to a specific
case number to the supporting documentation. For 11 of the travel
transactions we tested, the supporting documentation did not contain
receipts to support all of the expenses listed. We summarized our analysis
in Exhibit 2-5.

                         Exhibit 2-5: Unsupported Costs


   Superfund Matter        Voucher
           ID              Number            Description             Amount
   90-11-3-1749             3810214 No airplane ticket receipt         $536
                                    Portion of air ticket
   90-11-3-1749             3821845 unsupported                          78
                                    Portion of train fare
   90-11-3-08948            3822712 unsupported                          30
   90-11-2-1134/1           3824727 No airplane ticket receipt          280
   90-11-2-07237/6          2733382 No airplane ticket receipt          376
   90-11-3-07730/1         38126104 No airplane ticket receipt          344
   90-11-2-1134/1           3811975 No train ticket receipt (lost)      189
                                    No taxi receipts; amount
   90-11-2-1134/1          38129178 greater than $75                    159
                                    No taxi receipts; amount
   90-11-2-07096/1          3812161 greater than $75                    192
   90-11-3-08985            3824179 No train/plane ticket receipt       163
   90-11-3-08985            3815557 No train/plane ticket receipt       141
         Total                                                       $2,488
  Source: OIG Analysis

     Case Classification

      We found case numbers on supporting documents for two transactions
that did not match the case numbers in the Superfund database. Such an
error can cause funds to be misallocated to the incorrect Superfund case.




                                        14

                      Exhibit 2-6: Incorrect Case Classification

       Voucher                  Superfund Matter ID
       Number              Database       Documentation                   Amount
     3817840               90-11-3-1749     90-5-1-1-08702                     $649
     38126128             90-11-3-684/1      90-11-3-684/4                     $695
      Total                                                                  $1,344
     Source: OIG Analysis

       Proper Approval

      We noted 16 of the 128 transactions we reviewed did not have proper
authorization and were either missing an approver’s signature or a date. We
have reported missing approvals on travel expenses in previous audit
reports. 9 In response to similar findings in our September 2007 report, the
ENRD issued a September 10, 2007, memorandum to section managers
reminding them of their responsibilities under the travel regulations to
document approval of travel prior to the travel being initiated. The ENRD
issued similar memoranda to all new and existing employees. The prior
authorization of travel initiates the obligation of the travel costs and ensures
that the traveler is protected by an official authorization during periods of
travel. In addition, accurate voucher summaries ensure that the traveler is
reimbursed for the correct amount based on their expenses.

       Based on our statistical sampling methodology and the results of our
tests, the error rates for all but one category of testing - proper approval ­
fell below 3 percent and were not considered material. However, for proper
approvals, the errors exceed 3 percent (16 exceptions out of the 128 tested
transactions). When these results are projected to the universe of 410
subobject code 2100 - travel transactions, we are 95 percent confident that
there are at least 32 but no more than 88 transactions that may not have
proper approvals.

      We believe that the ENRD maintains adequate internal controls over
the recording of other direct charges to accounting records and Superfund
cases. However, we recommend that the ENRD reinforce specific policies
and procedures for submitting complete, accurate travel authorizations and
voucher summaries; remedy $2,488 in unsupported travel costs; and ensure


       9
         U.S. Department of Justice Office of the Inspector General, Superfund Activities in
the Environment and Natural Resources Division for Fiscal Years 2004 and 2005, Audit
Report 07-43 (September 2007); and U.S. Department of Justice Office of the Inspector
General, Superfund Activities in the Environment and Natural Resources Division for Fiscal
Years 2000 and 2001, Audit Report 03-34 (September 2003).


                                             15

that travel voucher numbers 3817840 and 38126128 are allocated to the
correct Superfund case number.

Conclusion

      We found that the cost allocation process used by the ENRD provided
an equitable distribution of total labor costs, other direct costs, and indirect
costs to Superfund cases during FYs 2006, 2007, and 2008. We found
discrepancies, however, in our testing of travel expenditures:
11 transactions that were missing receipts supporting a portion of the
claimed travel cost, 2 transactions had the incorrect case classification
number, and 16 transactions were missing proper approvals on travel
authorizations.

Recommendations

   We recommend that the ENRD:

   1. Reinforce policies and procedures to managers and employees for
      submitting complete and accurate travel authorizations and voucher
      summaries.

   2. Remedy the $2,488 in unsupported travel costs.

   3. Ensure that travel voucher numbers 3817840 and 38126128 are
      allocated to the correct Superfund case number.




                                       16

                  STATEMENT ON COMPLIANCE

                 WITH LAWS AND REGULATIONS


       As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
ENRD’s management complied with the Comprehensive Environmental
Response, Compensation and Liability Act of 1980 (known as CERCLA or
Superfund) and the Superfund Amendments and Reauthorization Act of 1986
for which noncompliance, in our judgment, could have a material effect on
the results of our audit. The ENRD’s management is responsible for
ensuring compliance with federal laws and regulations applicable to the
ENRD. In planning our audit, we identified the following laws and
regulations that concerned the operations of the auditee and that were
significant within the context of the audit objectives:


  •	 Comprehensive Environmental Response, Compensation and Liability
     Act of 1980 (CERCLA), 42 U.S.C. Chapter 103, Section 9611(k)

  •	 Superfund Amendments and Reauthorization Act of 1986 (SARA)

      Our audit included examining, on a test basis, the ENRD’s compliance
with the relevant portions of the aforementioned laws and regulations that
could have a material effect on the ENRD’s operations, through interviewing
the ENRD’s personnel and contractor, analyzing data, assessing internal
control procedures, and examining procedural practices.

     Nothing came to our attention that caused us to believe that the ENRD
was not in compliance with the aforementioned laws and regulations.




                                    17

                                                                            APPENDIX I

               OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

       The objective of this audit was to determine if the cost allocation
process used by the ENRD and its contractor provided an equitable
distribution of total labor costs, other direct costs, and indirect costs to
Superfund cases during FYs 2006, 2007, and 2008.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective. To accomplish the overall objective, we assessed whether:
(1) the ENRD identified Superfund cases based on appropriate criteria,
(2) costs distributed to cases were limited to costs reported in the E&A
Reports, and (3) adequate internal controls existed over the recording of
direct labor time to cases and the recording of other direct charges to
accounting records and Superfund cases.

      The audit covered, but was not limited to financial activities and the
procedures used by the ENRD to document, compile, and allocate direct and
indirect costs charged to Superfund cases from October 1, 2006, through
September 30, 2008. We compared total costs recorded as paid on the
ENRD’s E&A Report to the amounts reported as Total Amounts Paid on the
contractor’s year end accounting schedules and summaries, and traced the
costs to the Superfund cases for FYs 2006, 2007 and 2008. We also
reviewed the contractor’s methodology for distributing direct labor costs and
indirect costs to Superfund cases for FYs 2006, 2007, and 2008. In addition,
we reviewed the ENRD’s methodology for categorizing Superfund cases by
comparing a select number of Superfund cases to the ENRD’s Superfund
case designation criteria for FY 2008. 1


       1
          We have conducted audits of ENRD Superfund Activities since 1985 and generally
have found a reoccurring discrepancy concerning missing approvals on travel expenses. In
response to our finding, ENRD issued a memorandum to section managers reminding them
of their responsibilities under the travel regulations to document approval of travel prior to
the travel being initiated.


                                              18

      We performed detailed transaction testing of other direct costs for
FY 2008. We employed a stratified sample design with over all sample ratio
of 33 percent, to obtain good estimates of the exceptions. We reviewed
100 percent of transactions in one stratum that consisted of high dollar
transactions within these subobject codes. From each of the remaining
strata, we selected a random sample of transactions for review. In total, we
reviewed 182 transactions totaling approximately $686,719.

      For our assessment of internal controls over the compilation of direct
labor charges, we relied on the results in the U.S. Department of Justice
Office of the Inspector General, Environment and Natural Resources Division
Network Computer Security and Case Management System Internal Control
Audit, Audit Report 1-19, August 2001.




                                     19

                                             APPENDIX II

          2008 CASES IN SAMPLE REVIEW
Case Number                 Classification
33-33-1143-09740            Land Acquisition
33-41-128-07656             Land Acquisition
33-41-128-07661             Land Acquisition
33-45-2123-07613            Land Acquisition
33-13-578-11262             Land Acquisition
90-12-01779                 Law and Policy
90-12-02138                 Law and Policy
90-12-02333                 Law and Policy
90-12-02432                 Law and Policy
90-11-6-05067/1             Environmental Defense
90-11-6-16156               Environmental Defense
90-11-6-17426               Environmental Defense
90-11-6-17974               Environmental Defense
90-11-6-18314               Environmental Defense
90-11-3-08304/2             Natural Resources
90-1-23-10202               Natural Resources
90-1-23-10662               Natural Resources
90-1-23-10940               Natural Resources
90-1-23-12162               Natural Resources
198-17-00476                Environmental Crimes
198-29-00863                Environmental Crimes
198-41-00503                Environmental Crimes
198-44-00607                Environmental Crimes
198-76-00483                Environmental Crimes
90-11-2-1045/6              Environmental Enforcement
90-11-2-934A                Environmental Enforcement
90-11-3-08678               Environmental Enforcement
90-11-3-1420                Environmental Enforcement
90-7-1-74/1                 Environmental Enforcement




                      20

                                                                             APPENDIX III

FY 2006 ACCOUNTING SCHEDULES AND SUMMARIES




           Mo". _1...1IMf1
           u.s . ~"'_
           Eoo _ _ N ........ _om.;..
           S_lII))t
           601 DS-N.W.
           W _ ........ DC. :IIXI()<


           Our Mr. "...tty.
           l!Ioc:loood pIeue find !he followin& flllAl fiocaI "... 2OJr> , - <tid
           _ , . _ _ _ .... iu n:1IriJocI 1O """" inc:mTed It)' ....
           u.;"""    5_~ ' of                J_   (DOl). _              l1>li 111« .....
           _            I)i""" (I'.NItl) ... td>aIf <1i "'" ~
           "'.... _                  Coo, ..
                        ApN:y (J'l'A) _        ....        1    i .. En ... _




           -
           'I-.
           Am
                    Coo,. ...... A<:t '" , _
                 e- . _ _                 L i .tily Ad '" 1'l'lIO_ "'" Supa-f_
                                                                  (SAIlA ........ _    .


                    •   EPAIIi .... s - y _C t
                        s.,.._    JO, 2OJr>
                                                        .....   1-6


                        001 .$, _ c - C - S
                        AI of St:p'    •   JO, 1IXI6
                                                            .,(d........ -.-)
                    •   DOI - S--C- . n- "J~
                        Y_ _ 5 1              '   :10. 2006 ( 1       _-.-)




                 - .---"
                       --"'-.__.'--"'-                                                     m.i




                                       21

Mr_ _ L. Ilmffy
u.s. DopIrbno1o' of 10IIliu
.... '
1.... ,1.::007




Tho 1<_""'• ...",f'!'IIrieI. ond <ole.laIi"", til", l»<n ~ by ... _                        ""
i n f _ 'opplow '" u, I»" ,lie ENRD. I'ToI'co"-, tim<                    m...-.
                                                                             oat")' doU. UKI
_      .... """"flO . - oxpMCli'_ ha ....... i...... 0: _ _ by .. !O ]!I<Idu.;o "'"
1I'"",mm1ione<l rqxru. T.w """II iDcuned Ot obIlpICOI b}' "'" ENRD .. _                in "'"
E>.ponditl.:r< 01Id ...1"'..aU RopooU (FA"') lOt "'" peri<>J til .. boon uocd '" ,akul. . "'"
o.oaJ..-.. duo fm:n EPA moanl" "'" SLJpOrlimd ..... _ Compu ....-ae< .. ..w tim<
.qw:wtinJ ",_ion lUJIPIicd., "' by DOl (t-oe.I on Et-01!D"o """"",Io<;on of                  otlcmo,
..d!*UP! hoon) 01"", wi!h "'" _ lij"1 hoo.o-ly .... ooIoullltiollo -I»""' booed on
i'.NlU).soo;>pU<d ~ ..a.y fib, h• .., .....                     ....,wed
                                                                       I»" "' ., ...... ....
_ _ of lho caIolllOl<ld ,.,....~..... All <>bIipiOd ...,.. """'""" reflo<\aI. on
t~ E.l ...., .. of Sep<ember 30. 2006. "hiclI _ _ "",<lifK>.l • 001< '1'""11;,, ho .......
,au.;fK>.l. indin><l I......

O\w ~ """"" of               ...-.iotoo did _ coo"';_ '" _                 of tho 11''''''0"'''00''''''
o<1Ioctule • ..-.l ournmarioo and. _nli,. -... do "" .. _                    on opillion 011 lhtm.
_ _ .lht ~ .. ~""" by"' 10 ....... and .tlocot:.ooou .,"""flO .... i.
bosed 011 ",nerally -=pltd ~nl prin<ipiel, in<Iu6i .. refcm>cel '" <OIl oIlocllion
",idoli,... OIIlIiIlOCi ill "'" _          ""'I"ioilion Repl_ ond Coot Aooo,w                   U;",
~. In addili_ .. lI<l<lomand IIIlO .... OOJ _                      .air "';11 cootin .. 10 porkIrm
ptriodio udi" of .... OOUI« do<umor<orion ......... ...,...;""" Ii... "pMi", infonnolion
t<c ..... 1oood by I!NRO ond 0IIPI'Il«I 10 uo. Our 0<:t<IWIIinJ .. port&. I<h«lIIoI OIl[!
IIImlIIAIico "';11. _""'. Ix """" ••oil.bIe '" OOJ os po<I of !lUI 000;, ~
8e)<Ind tho .,..lfIc ~ ,..... _                       ..... 1!Ilte "" <Milot lorm of ........... on
the ofutmen'"-<l oclIoruI<I >lid """""""'"_




                                                      22

                                                                                                                              Schfflul~   1
                                                          E PA BILLING SUM MARY
                                                       SUMMARY O F AMOUNTS DUE
                                                       BY INTERAG ENCY AGREEMENT
                                                              S<pt~~r 30, 2006



                                                                                         F;'iCa1Y~..-s




EPA Billing Swnmary Amount Paid           $    "''''               """
                                              21,557 ,%2 (,) $ 22,088,194 ~) $            """
                                                                                         27.417 ,560 ~) $
                                                                                                              2003
                                                                                                             26.579,061 ~)
                                                                                                                                 2002
                                                                                                                             $ 27,681,814

      Add:
 !':aYDlettts in FY 2006 for 2005 (a)                             3,921,645

 !':aYDlettts in FY 2006 for 2004 (a)                                                       313,377

 !':aYDlettts in FY 2006 for 2003 (a)                                                                           98,643

 !':a}metlts in FY 2006 for 2002 (a)                                                                                               35,373

 !':a}metlts in FY 2006 for 2001 (a)
                         Submta1              21,557,%2          26,009,839              27,730,937          26,677,704        27,7]7,187

 Unliqindued Obligat;OIl. (c)                  4MH41              U40M5                      18l.512           330 ,925

 '~l                                      $   26,251.903      $ 27350,504            $   27,912,449      $   27,008,629      $ 27 ,7]7J87




                     (a) Stt EPA Billing SUDlIll.lf)', ScbMuk 2, S<ptnn~ 30, 2006
                     (b) Stt EPA Billing SUDlIll.lf)', ScbMuk I. ~Dlkr 30, 2005
                     (c) Stt EPA Billing SUDlIll.lf)', ScbMuk 3, S<ptnnkr 30, 2006




                                                                          23

                                                                                                                    ScMdul .. 2

                                                 EPA BILLING SUMMARY
                                 SUPERFUND OBLIGATION AND PAYMENT ACTIVITY DURING loot
                                             BY FISCAL YEAR OF OBLIGA nON


                                                                          Eiii!:~IYrm


AmoWllS Paid                                 "''''
                                                          ,   """
                                                                           ,   """        ,
                                                                                              2003       2002         Toul

    Lohoc                                    6,9&4,019                                                                 6,984 ,019

     Othe!: Direct Costs                     1.904,671        1.019.560        2&4,872         98,822      25373       3,313 ,298

     Indir<'C1 Costs                        12,669,272        2,343.161         28,505           (179)     10,000     15,050,759

     Supo-rfund Program Expm..,;                               558,924                                                   558 ,92 4

                           Subfotal.        21.55 7,962       3,921.645        313,377         98,643      35,373     25 ,927 ,000

Unliquidated Obligations (a)                 4,693,941        U40,665          181.512        330,925                  6,547 ,044

Totals                                      26,251.903    ,   5,262,310    ,   494,889    ,   429,569      35,373     32 ,474 ,044




                                (a) Stt   ScMdul~    3




                                       Cbttk Anlls        S     10,780     S      (179)   S    1l ,928
                                                               313,377          98,643         37.301




                                                                          24

                                                                                                                                       "",",", ;
                                                      EPA Bll.LING SUMI>iARY
                             FISCAL YEARS 2006. 2005. 2004. 2003 A,'ID 2001l'-NLIQliIDATED OBUGATIONS
                                                          ~1t1Ilb<:r 30, 2006




                                                                                                        .
                                                                                                Fi",al.Y~=



                                                            ",'"                 2005                ",                   >0'"             2002
ENRD Unliquidatffi Obligation,
  al ~m~ 30 , 1006                                    S     31.321.160      $ 6,256,810        S        801.23 7      S    482,869     S     32,075
11..: Unliquidalffl Obligatio,,,,

  S,""tiOll ]595 (a)                                        14,943 ,704         4.153,502               631.233            151,944           32,075
  S,""tiOll ]596 (b)                                         1.742,179            544.416
  S,""tiOll 1598 (c)                                         2,161.662          1.283,281               185,123            330,925

                                                            18,94754 5          5,981,209               816,356            482,869           32,075

Nr1 Unliquidat..d Obligations -
                                  =                         12,373.61 4           275,611               (15,119)

Supffl'und pt'fcMltag~ (d)                                    19.6570"
                                                                     /0         20_8205 ~~            23.8859"
                                                                                                             /0           25.3151 ~~       24.3589"
                                                                                                                                                  /0
Supffl'und ponioo of   Unliquida~d
  Obligation,                                                2.432 ,279            57384                  ( 3,61 I)
Add - S,""tiOll ]598 UnliquidaU<!
  Obligation,                                                2261.662           1.283,281               185,123            330,925

Total. Supffl'uod UnliquidaU<! Obligatioos (~)        S      4,693,941      $ 1.340,665        S        181.512       S    330,925     S



(a) Stttioo ]595 [dates to =inbw-sabl~ :unounl, from agencies Ofbrr than EPA
(b) ~tion ]596 fdates to nOll-Su~ charges.
(e) SttT;OIl ] 598 [dates to charges th:!t atC Suptrlund sp«ific.
(d) Supffl'uod pt'fCMltag~ of Wlliquidalffl obligariOllS wa. c:akul.:r.lffl by dividing y~ar 10 da~ Supffl'uud
       dir~ labor by u,.. lOIa l dir<'C1 labor for ~""h of u,.. fiscal )""'"
(~) ~la~ ooIy 10 wiliquidaled obligatio,," for ~ fiscal y~ ar indica~d_




                                                                              25

                    "'_"" !., ...... ," ~
                              . o;$::Z;:;~
                                                                                         l "
                                                                                         " ~
                    ~:::
                                             ::<    ..
                    ~ ~ ~ ~ ~-gM-~~          ~      ~-   ~                               "
                                                         ;!.
•
                    :;: :!_.,. ~ c: ~ ~ ~
                    ;:_ _         "'. ~<            tl   ..
           jj~
                                             ;:'
j          "   .                             ::;-
                                             o
                                                    ~.
                                                    "
                                                         ::l                             "
                                                                                           ".
                                                                                                              " 1
                                                                                                                             1
                                                               •
                                                               •
                                                               •
                                                                                                    j
                                                                                                 ;;Jj
                                                                                                          1",~.e ~~
                                                                                                          l~ Ud~
                                                               I                                 ~~
                                                                                                 l!~    ..;~.::
                                                                                                         ~S !      "I'"
                                                                                                                   Jl ~"
                                                               1                                 jj     lq j!Jl!
                                                                                                 !' . j , 'l·J,,,
     "
    ~~
                                                               I " . .....'
                                                               ·
                                                               j     • " 'I
                                                                 . .;..; • •
                                                                     00 .
                                                                   "' ", "   -
                                                                                                 ;'j i~~- ~1~·H~
                                                                                                 ~~ I F il~r~




                                                                                                                                      26

    ~n
                                                                   '
                                                                                                 il H~
                                                                     "
    ~~ j
                                                               1
                                                               •
                                                               >
                                                                     "
                                                                                                 n ~,.:g -!j j' &:!"'
                                                                                                           "' "              ali
                                                         I I                     l               I!.~~ ' ~~
                                                                                                 110 " ill
    ~r                                  l                ~ ~
                                                         ,,
                                                          ',
                                                         ".
                                                         !
                                                                   ~~~~~~                        ~ a j :rd ~ ~ II .
                                                                                                 oj " 0 " '
                                                                                                 11 i'!~BI.' ~
                                                                                                 .
                                                                                                                        ri'
                                        I                 ,                                      ., 1 1,j'' .=O~ ~ ~~~
                                                                                                              ,./",
                                                         "                                       "         ""I ,.,
                              , !
                              1·'
                                        1
                                        I                l
                                                         ,
                                                         ,
                                                               I
                                                               0
                                                               "
                                                                                     1 !         "",j'·'i ill'
                                                                                                 r H; ~~h,,~
                                                                                                 ~ ~    .:!8 ~ 1       iI;       --
                                        I                o
                                                         j 1   '
                                                                                     j   1l
               ~" lij.,llH l 1 I .
                    •    l' 1    j
                                                                                                 s
                              1 ,                          I                                            e:~        i
                       ilijl~ ..
                    .. '
                    j     '
                                                    1
                                                               !
                                                               ,
                                                                                     I I
                                                                                     ! ! 1
                                                                                             1
               .3     ..   .E o~~j~                 "                                        "
                                                                                                                        Scheduk 5

                                          EPA BILLING SUMMARY
                                 SUPERfUND COSTS BY OBJECT CLASSIFICATION

                                                        Sq>tnnhN 30, 2006


Objttl

"'"         Drnripriou

          Sabri",
                                  ",=,
                                 ExJlt1Ns

                               $ 8.471599      (a) S
                                                       '""""'"'
                                                       ~""=
                                                       Expm=

                                                                        $
                                                                             Indirttl
                                                                            fup<m<'

                                                                              55]5, ]87      $
                                                                                                  Unliquidaled
                                                                                                 Obligation, (b)

                                                                                                       1.785,329
                                                                                                                          ,..
                                                                                                                         ]5,772.115
  "       Ikndil'                                                             3.228,722                  124,833
                                                                                                                    $


                                                                                                                          3.353555
  "       Trani                     326,786                                         89,835                4 1.436             458,057
  "      Fr..ighl                                                                   73,087                15,922               89,009
  "                                                                           2.455.473                  579,585          3,035,058
  "       Rm'


  "       Printing                    5,461                                          ,,.""                 4.147               ]7,598

          s.-n~""s                                                            1.089,053                2,010,929          3,184.826
  "       Suppl~s
                                     "'""'                                      114,520                   37,934              152,4 54
  "       Equiptn<:lll                                                           95,405                   93,826            189,231
  "        Toul                $ 8,888,690         $                    $    12,669,272      $         4,693,941    $    26,251.903




      (3) locludes cosls for dir<'CI labor, VCial masler.; and apffi \\~U1"''''S,
      (b) Rrpresmls ~ Suptrlund ponioo ofunliquida~d danuges.




                                                                    27

                                                                                                                          Sd..dul~6

                                                  EPA BILLING SUMMARY
                                         RECONCll-IATION OF TOTAL ENRD EXPENSES

                                                                Sqnrmkr 30, 2006
                                                                                                           Indir<'C,
                                --- Supm'und--                          ---NOII-Sup<rlund--              S<'Ction           TOla]
Obi.."                     Di=,                                      Di=,
                                                                                       -~
                                                 Indir.."                                              ]595 & ]596        Anowm

"'"
         DncriIlljOll

         Sa~.
                          ==
                        S 8,471 ,599      S
                                              Expm=

                                                  5,5 ]5)87
                                                                    Expm""

                                                                  $ 28,732 ,6]6       ""'"""
                                                                                    S 22.364,232       S
                                                                                                           Expm=

                                                                                                              45369
                                                                                                                            "'d
                                                                                                                        S 6S, ]29,OO3
  "      ,,=fi.                                   3,228,721                            ]3,]96,593              27,032      ]6,452347
  "                                                                                       367,170              ]6,644       2,659,08 ]
  "      Tr.lVd              326.786                  89 ,835         1.858,646

         Fr"':ghr                                     73 ,OS7                             298,729                             371.8]6
  "      ....,                                    2,45 5,4 73                          10,036,135                          12,491.608
  "                            5,46]                                                          32,659                           67,889
  "      PrintinS
                                                       '''''             2U79

         Srr\~c~                                   ],089,053          2.1 54,52]                                            9,228,944
  "      Suppli~
                              "'"'                   114,520
                                                                                        4,2H 901

                                                                                          46S,072
                                                                                                           1.655,625

                                                                                                                              582.592
  "
  H      Equip""""                                    95 ,405                             389,945                             485,350


'0"                     S 8,888 ,690      S      ]2 ,669,272      $ 32.767 ,563     S 5U98,436         $ 1.744 ,670     S ]07,468,630




                                                                       28

                                                                          APPENDIX IV

FY 2007 ACCOUNTING SCHEDULES AND SUMMARIES

       F    T      I'




                                                                         --
                                                                     .,,,,,.>,u," _
                                                                     .,JOl..... _ _




~.   - . L IIruII)o
u.s. ~ <II JlJO"'"
E<Mroo., ....... _ ,,____ 0M0i0n

-=
eo'O_N.W.
WwI .. ."u,oc.2OOO&




~ ...... finol "'" _00 _ r_ _ 2007,.. ..... """"""*'I oct ........
_ _ "II '" """" i'>cwNd bjr t>o UnIOod _ Oop ~ , .j of ...._ (OOJ).
Em'"" .. ,, _ _   ~ OMoion(EI<RO)"" _"'tI>t~                              _
_ _ (~P"l_'" 000' ..... ... .. . ~ •• .,. " ....... "010' .... e---_ .... .........
#oct '" ,9110 om ... ~ "",.",,,.1>1 _ -.:wr_ #oct d 1M (s,.t.AA ... .
,,*- , ~ ,


       •    EP,,-...s..-., · Sc'v' ... ,·1
            SooMoI_       30, 2007

            OOJ·   ~           c- ec.o. SUIrmIoIy (_ " il: ~
            .... aI';      Iw30. 2001

            OOJ·~C-·TirnoBv~
            V_ E . - ... · I..... 3O.2007(_0'.IfI1)




                                                                  _'"*_
            OOJ _ ~ OIr.aCooIl            (~<>oicaJP\')
           y _ _ So!:11 ' ..... 30.2007

The"'" " ' 1 " , "1 ... _ _ ,..21»1 _ _ . . ' . ..
 : . ...... "'" _ _ ,... Ao.'-''' .....,.100 h;IutIod.;              ' . priar
" . .I......." '        . po   'l 'bjr . . - , g   .. _,..2007.




                                                    29

                                                 "
      J
           ~li~J'i'~     I'f~if~ij               >-
       l!iHhl1            !In ,'i
      ,I fl~i' ~          !'~, .~!               "
                                                lIIi
      'j'     Illl   J   ,'I,.,fll
      lfi~·~il; ~ -tfit~!!ll·
      !t'lllfwl j i"li~'j.
      !ii~il!! ~. j!ljftl·l l




                                                       30

      ii!~I~i' .. 1 ~'lf~III,1 ~
      i.i'l!I'I'! '!tl!ij1il ~
 i
.-
      hlhhhll¥. !hHHH I \
       j' 1>1'11 I !lHi '!' f~~ ~
                                        I
~-i~ IP2~'WI! 11'li~!~-' [~ !f
t, •• ,II!liH!I'! ,B fl!,lf~1 ,.!i: ~ ~.J
~:>~"-..U .. ,UA'hf
                    • t .. !l p~ l~
                                 1111
                                            I
                                            J
                                                                                                                                                       Scheduk 1
                                                                          EPA BILLING SUMMARY
                                                                        SUMMARY OF AMOUNTS DUE
                                                                       BY INrERAGENCY AGREEMENT
                                                                              S~Irmbn- 30, 2007




                                                                                              Fjd     Yrnl;



EPA Billing Swum...y - Amowu Paid                 23,373,029 (a) $ 21.557,962 (b) S            26,())9,839 (b) $   27,730,937 (b)   S 26,677,704 (b)

     Add
 PaYIll"'IS   in FY 2007 for 2006 (a)                                       2,644,080

 PaYIll"'IS   in FY 2007 for 2005 (a)                                                               543,025

 Pa)=IS       in FY 2007 for 2004 (a)                                                                                  78 ,292

 Pa)=IS       in FY 2007 for 2003 (a)                                                                                                    ( 13,690)

                                                  23)73.029                24,202,042          26.552,864          27,809,229         26,664,01 4

 Unliquidaled Obligalioos (e)                                               1.216,073               562.516

                                                  2H06,974                 25.418,115          27,115.380          2H42 ,656          26,751.929




                      (a) Stt EPA Billing SIl1ll1ll3I)',   Schfflul~ 2,   SqJI~   30, 2007
                      (b) Stt EPA Billin'ol SWl\1ll3IY,    Schfflul~ I,   SqJI~   30, 2006
                      (e) Stt EPA Billing SIl1ll1ll3I)',   Schfflul~ 3,   SqJI~   30, 2007




                                                                                             31

                                                EPA BILLING SUMMARY
                                SUPERFUND OBLIGATION AND PAYMENT ACTIVITY DURING 200i
                                            BY FISCAL YEAR OF OBLIGATION


                                                                       Fi",,;al Yurn



AmowusPaid
     Cohoc
                                          =7,4&6)85
                                                          ""                ""          2JIO!
                                                                                                   ""          ,
                                                                                                                   Thill
                                                                                                                    7.4&6.185

     Otbt-r Dir~! Costs                    2,391,153        595.481          538,248      73,082        ,,,         3.598.159

     Indir~!   Costs                      13,495,691      2,048,599             4,777      5,210   ( 13,885)       ]5.54IU92

     Sup<rl'uud PrOg<llDl Expm",s

                           SubroW         23,373,029      2,644,080          543,025      78,292   ( 13,690)       26.624.736

Unliquida!«l Obligations (a)               4m3 ,945       1.216,073          562 ,516     33.427    87 ,9]5         5.933.876

Totals                                   $27 ,406 ,974   $3 ,860.153       1J05.541     $ 1l\J19   $74 .225        32.558.612




                               (a) Stt ScMduk 3




                                                                       32

                                                                                                                           Schfflul~   3
                                                      EPA BILLlli"G Sl'-Jl.iMARY
                             FISCAL YEARS 2007, 2006, 2005, 2004 k"'ID 2003 l '-NUQl'-IDATED OBliGATIONS
                                                          s..ptrrnbn- 30, 2007

                                                                                        f iscal y=~

                                                       2007
                                                                           ",'"
ENRD Unliquidated Obligations
  at s..ptrrnbn- 30, 2007                        ,     23)20,545      ,   7,216,408    , """   909,768    , """218,862     , """155,118
Uss Unliquidatnl Obligation.:

  Stt!ion1595 (a)                                       8,638 ,4 12       4.555.562            219,952         184,997           67,203
  Stt!ionI596(b)                                          769,649         1.186,128
  Stt!ion1598 (e)                                       1589,265          1.152,792            529,042          33.289           87,915

    ,""",01                                            10,997)26          6,894.482            748,994         218,286          155,118

1'<1 Un!iquid:ued Obligations -   CNRD                 12)23 ,219          321.926             160,774
SlIJl<'Ifund P"I<=tag~ (d)                               19 . 838~~       19.6570"
                                                                                 /0           20.8205%
                                                                                                                   '"
                                                                                                              23.8859'Yo       25 .315 1%
SlIJl<'Ifund portion ofUn!iq uidated
   ObIigatiOO'l                                         2,444 ,680          63.281               13,474            m
Add - ~tion 1598 Unliquidated
  ObIigatiOO'l                                          1,589,265         1.152,792            529,042          33.289           87,915

Toral Suptrfund Unliquidated Obligations (~)     ,      4,033,945     ,   UI6,073      ,       562.516    ,     33.427     ,     87,915




(a) Stt!ion 1595 rda~ to reimbursabl~ amounts from agmc~ orb"" than EPA.
(b) Stttion 1596 rd.a~ 10 noo-Suptrfund charg ...
(e) ~tioo 1598 rdat.. 10 dtarges that "'~ Sup<rlund spn:ifie.
(d) Sup<rlund p==tag~ oflDlliquidated obligations WAS calculated by di,;ding }"<II to dalf" SUP"lfund
      direct labor by th~ lOC direct \.abor for ~:ach of th~ fiscal }"<II'
                             al
(~) Rdatts only to unliquidated obligatioo, fur th~ fiscal }"'" uidieated




                                                                       33

                  .. -
                 1--,... ~~~!
                            ~   ~~         , , ~ ,
                                                                                             ,,
                                               -,
                 ."'.....                          "                                         $   ~
•                !!!:i~:i";"';"''''        i
1
,          lUi ....
                 "'. -'"' ,..; ~::s~ :::
                 c, :::   _ .; -
                          ;;    ..         ~
                                           •   -
                                               ~                                             ~   fi
                                                       -
                                                       •
                                                                                    --
                                                                                                      ~~
                                                                                                      .d
                                                                                                             h
                                                                                                            . ~~
                                                                                                                   ~~ n;
                                                                                                                   d·
                                                                                                                       t~
                                                       i                            o.
                                                                                                                   ~ll" ~
                                                       o
                                                                                    "! - ,
                                                                                    --
                                                                                    "....               ::::
                                                                                                      l i l"],§
                                                                                                             ,IS"      ~
     ~
                                                       1                            "
                                                                                                      1] j)-*
                                                                                                      !~
                                                                                                             1'1   jH'1
                                                                                                                   l i Jj ~ t
    ~~                                                 I . ''" c
                                                               ~
                                                            :>i_ ~_
                                                            M   .... ~
                                                                      >:_ .., ::I
                                                                              M
                                                                                                      ""J 1~='
                                                                                                      H 1 ! ~ i,h'! _ ~ .. ,p~




                                                                                                                                 34

                                                       Jl   ~a_
    ~~   !                                             1 .. c.
                                                       -                                              l' 1;3 j .. ,h
    ~~ i                                               •
                                                                                                      'l~ I i~ , ~Jl1~~
                                                                                                      ~ i :I !i. :tbB " 8
                                                                                                             ~ - ~.i ~ 1'
    .~   1                                         i   I                            I                 ~
    ~~                                             J~       ~~~n                                      Ij ~-!~~~~~ .j.~
                                                                                                                     B    " "'
     ~
                                                   o   •
                                                                                                      .
                                                                                                      h    ""'l'"j-
                                                                                                          .I~"~~ H ]
                         1 .~ ,
                              l                                                                                     ~B"'"
                       , .
                                                                                                      "  ..  " g'll
                                                                                                      !~ 1 F,I"~i ~J
                                      1            •
                                                   , i•                                               2Pi~2~~lin~3
                                                   i .                                  ~ ~           1'"Jj'i1lio1
                 , 1- "    1l    i    ,I
                                                                                        III           ,  -- :!:
              ~' HHdHi 1IiI
                                               j
                 . 11
                 j
                      ...   1,; 1
                                111 -
                                      1
                                                                                        1-·
                                                                                        " II.
                                                                                                      ~    e-!:\
             j                                 1       I                                     "   •
                            EPA BILU!"G Sm n L\.RY
                                                                                                     -,
                   SUPERFU"D COST S BY OBJECT CLASSIFICATIO:\'

                                           S<>pt~mbe l'   30. 1007




  De'Krip,ion
                      00-,
                    &J>m=
                                           '"-~-
                                             ""'"""
                                           Expm=                ~
                                                                 lndi<<et        UnliqWdatM
                                                                                 Ob!i~arion.   (b)
                                                                                                       '''''
SaLries             $9.494.27 5 (. )   ,                         $5.953. 114          $2.251) S4     S17.699.1 43

Ikntfi••                                                             3.410.348           124.023       3.534.371

Tra"d                  293.620                                         92.923             43,185         429.728

F[~iyll                                                                56.012             1l.205          672]7

><=,                                                                 2.615.814           27Uns         2.887.629

Printing                 5575                                           12.337             ,.'""          26.952

~lc~s                   83.868                                       1.162.76]         1.038)41        2.284.770




-,
Supplies



..     "            $9.877.338         S
                                                                      128.912

                                                                     63,470
                                                                $13.495.691
                                                                                          37.828

                                                                                         246.954
                                                                                      $4.033,945
                                                                                                         166.740

                                                                                                         310.424
                                                                                                     S27.406.974




Indll,x,. costs for dir<'Ct Labor. sp«:ial. =1= and ~ \\~"'.,.=_
RrtI=ts ~ Suptrlund portioo of wiliquidal~d d:un:w •.




                                                               35

                                                                                     SchMld~   6

                       EPA BILLING SUMMARY
              RECONCll-lATiON OF TOTAL ENRD EXPENSES

                                Sq>tnn~   30 , 2007
                                                                         "",=<,
      ---Supm'und--                    ---Non -Sup muoo--                              ,=,
  Diroc,          lndi=:!           o..~                ,",,=,           "'"""
                                                                       1595 & 1596    Amrnm"
&pffi=           &pffi=            1>",,=              &pffi=           E"",=           p""
$ 9,494,275      $5,953)1 4       S30,4 14,OOI         $23 ,637,296        $3,871    $69,502,557

                  3,410)48                              13,780,633          6,763      17,197,744

   293 ,620          92,923         1.733,394               375 ,487       14,115       2,509 ,539

                     56,012                                 226,336                      282)48

                  2,615 ,81 4                           10,570,059                     13,185,873

     5,575           12337             53 ,975               49 ,850
                                                                              .'"         122,544

    83 ,868       1.162,761         1.976,371            4,698 ,5 12    1.655.532       9,577 ,044

                    128,912                                 520,911                      649 ,823

                     63,470                                 256,475       354,426        674)71

$9M7,338        $13,495MI         S34,177.741          $54,1 15,559    $2,035.514    SI13 ,701M3




                                                      36

                                                                                  APPENDIX V

FY 2008 ACCOUNTING SCHEDULES AND SUMMARIES



       F     T
                                                                         ,_._­
                                                                         '"·''"'~·d'''
                                                                         ...... ,.'"
                                                                         ."~,, '" ,,,"';
                                                                         .,   ",-",,:~,
                                                                         .] ·OC ." " " ,




fobruary 10. 20CIe




... -
"". _      L 8NII'y
US. ~ <I "'*"'-
El I"",.,.. ~ondN _ _ OMolon

1I010snot N.W.
W~.oc.~




e . - pIo.o ....... _iii _ _ _                      200t _.,.,.      ~   _1M...,
... ,,, . . .~10 03111 Ina.wTod ..,. 1M u..o _ of ......... (OOJ).
                                                               ~I.~

E _ ..... _ _ DMoion(ENRD)""_d . . ErMo",.r.oUj p,_ ,
~lEPA)"""'II'IIec.' .. "'_ErrWonmenIoIRI'                     ... ~_u.:.illly
A<:t '" 18t1O ond . . s."p.!OIId   '-',,,,,odo,,.,,,, ond _ _ AcI '" 111M ,SARA Of,
_.         s...>orfund~




            EP... ~~·_'""1.7
            S ;1 'il>wXl,2OO$

            [)OJ . SUperfInI   c.. Cool SUrm\a'y (oIoci .... oopy)
            AI '" ~ I iboo 30, 2001!

      •        Soporllnl CUM· nm. II!' All<:mtylPanIoogOI
            [)OJ.
            y_ ~ S8jA1nIIbw 30, 200II (....,.""." "'PII)

      •     OOJ • ~ Dh<t Coota (_"'lie <CP\I)
            y_ Ended ~ 3(1, 200II

Tho_ ..... wnl. . . ,....,..,..         _200II....,.......... _ .. _«111_
OA>Ii<IbIo "'.". _ _ ,..... AI ............ OUIMIIrIM incIu:Md ~ ... PfIor
~_~                       ..= ..
                        IdIl'\ .. ~IO _ _ ZOOI,




                                                  37

Ik. _        L BnII\I
u.s. o.p..,•• <1I..IJoIk>o
F""""'Y ' 0. 200&
'.'
Tho - . ... ",........ _ _ iii".. _               proporm by .. _ en i ""ii_,
~ Ie .. by.n. ENRI). Pool l ll l o"tlllmil~.""'" dill, ..... 0IhtI_1iPtdIIc:
_ _ _ ,,...._lnpuIor_by .. Ie~".~ _ _ .
10Ui1 CiDIIIIna.md or l~ by Il1o EMIO. _              h too ~ ..... ........"
IItporIf (E&A) tor ". 1*'0:1 ".... - . . . - Ie _     I!iiO _ _ &.0 110m EPA
                            CompuW~ ~"" ropa1oIiOlW"ii_, ~ 10 ..
r8Io1Ing 10'" SUpeoI\.nd calM.
by OOJ   ~     en ENRlh ~ <11 IIbrwy ..... po~ 1"IOon) 0ItlrIg willi " .
~ hauIly '"'" CIIcuIIiIiono...- by " _    .. ENRD«IppII.cI . ,""'... oaIaIy-.
".... - . . . . - by .. 10 _ _ I l 1 0 . - - _ <11 h _ _ hauIly _ _ AA
otIIiQallll _     ~ ,.,. I ' "" ..... E&A1 • <11 SopIoo'iD01 30. 2OOi\ - . ... "'"
Idoolliflod •• COle IjIIdIIc, ".... been cIood\ed. ~ lob<>".

o.r .... _      ~        <11 _ _ cIId "'" _         an...,. tlIlIIo ...."" _ _ _
..... .......- ........... dIoG~·. WI aco iIOI _      an opIrIiIIn ",,!hom. 14<> ..... Il1o
"ilCliOCk*lO, ullllIICi by .. 10 .lIIgn aM . _ 00I1t 10 IiPtdIIc: _ II  *'" ""   ~
1CCIpIId.......-.llnll "'" ·11 • ~ ,""'". . . . to:o ....... Iit>.~..- in".
F_ AOIIUiIII<>"I ~" ..... Mel C<>oI_og SIand_ '" _                         . ... _ _
Il101 ... DO.! ...,.1Id . . cwontnlI to:opoobm~_"'''' _ _ MeI
                                 ~1Id by ENRIl Mel ouppiod 10 UI. OW
                                        1
.................... - - . ' " . ","1       ,   ,


~         ""'"""' _ _ Mel ... ",....... It•• b •. til __ ~ 10 OOJ • pOol

                        .b._Ib ___ ......"...._.
<1I1IIio _ _ • ~ I!iiO Ipoo:jI\c
<11.........,. .. ".
                                 '''''_.IIIb •...-
                                             ,           WI ..... no _ 101m


V..,WIAI'-.
m   RUBINO. IkOEEHIN CONSlA.nNCl




                                                                          iiii •      T




                                                    38

                                                                                                                                                               Scheduk 1
                                                                           EPA BILLING SUMMARY
                                                                         SUMMARY OF AMOUNTS DUE
                                                                        BY INTERAGENCY AGREEMENT
                                                                                S~Trmbn-       30, 2008




                                                                                                                                                  ..
                                                                                                   J::iii!&1 YrM:;

EPA Billing SlIIllIl1:lr)' - AmounT Paid
                                                      ""'s                    """
                                                     22,322 ,252 (a) S 23373.029 ~) $               """
                                                                                                    24,202,042 ~) $
                                                                                                                          2005
                                                                                                                         26 ,552 ,8(14 ~)
                                                                                                                                                ",
                                                                                                                                            $ 27 ,809,229 ~)

      Add
  PaYIll..m in FY 2008 for 2007 (a)                                          2,807,961

  PaYIll"'" in FY 2008 for 2006 (a)                                                                    381.483

  PaYIll"'" in FY 2008 for 2005 (a)                                                                                         220,526

  PaYlllrtlrs in FY 2008 for 2004 (a)                                                                                                                21,508

                          SublOfal                   22,322,252             26.180,990              24,583.525           26,773,390           27 ,830,737

  Unliquidatt<! ObhgaTioos (c)                        3,823 ,972             1.118,516                 661.521              267 ,539                 11,309

  Toul                                               26.146224           $ 27,299.506               25,2 45,046      $   27MO,929             27 ,&42 ,046




                      (a) Stt EPA Billing SlIIllIl1:lr)',   Schedul~ 2, SqJ~ 30, 2008
                      (b) Stt EPA Billing Sutnmary,         Schfflul~I, SqJT=.b..c 30, 2007
                      (c) Stt EPA Billing SlIIllIl1:lr)',   Schedul~ 3, SqJT...w.., 30, 2008




                                                                                               39

                                                                                                                    Schfflul~   2

                                               EPA BILLING SUMMARY
                               SUPERFUND OBLIGATION AND PAYMENT ACTIVITY DURING               200~
                                           BY FISCAL YEAR OF OBLIGATION


                                                                    FjsqJ Yrap;

                                         2008                                      2005                               Tow
AmOWlIS Paid                                          """          ,   "''''                                    ,
     '-"""                              7,671 ,805                                                                     7,671.805

     Otbrr Dir~ Com                     1,196)67      1.075,498          374,051    216,073           21,508           2,883,897

     Indir~   Costs                    13,453,680     1.732,463            7.432      4,453                           ]5)98,028

                           Subtotal    22.322,252     2,807 ,961         381.483    220.526           21 ,508         25)53,730

UnliquidaU<! Obligations (a)            3,823 ,972    1.118,516          661.521    267.539           11,309           5,882,857

Totals                                $26)46,224     $3,926,4 77   ,   1.043,004   $488,065          $32 ,817         31 ,636.587




                                (a) Stt &Mduk 3




                                                                   40

                                                                                                                              Schfflul~   3
                                                      EPA BILLlli"G Sl'-MMARY
                             FISCAL YEARS 2008, 2007, 2006, 2005 k"'ID 2004 l '-NUQUIDATED OBliGATIONS
                                                          s..ptrmbt-r 30, 2008

                                                                                          fjsalYrars

                                                        2008                  2007
                                                                                               "''''              2005
E:NRD Unliquidated Obligations
  at s..ptrmbt-r 30, 2008                         ,     20,95 0,212      ,   5,324,940    ,     1.479,744     ,    388,795    , "''''
                                                                                                                                   120,258
Us• • Unliquidated Obligation.:

  Stttionl595 (a)                                        8,901 ,289          1.880,513           753,646           11 7.412        108,949
  StttionI596(b)                                         1,500,855             695,593
  Stttionl598 (e)                                        2,210,700             715,055           645,721          266,528           11.309

   ,"""".
Nrf Unliquidated Obligations - ENRD
                                                        12,612,844
                                                         8)37)68
                                                                             3,291.161
                                                                             2,033 ,779
                                                                                                1.399,367
                                                                                                  80,377
                                                                                                                   383,940

                                                                                                                     4,855
                                                                                                                                   120,258


SlIJl<'Ifund P"I<=tag~ (d)                                19 . 3499"i~        19.838~~          19 . 657 ~~       20.8205%        23 .8859"
                                                                                                                                          /0
SlIJl<'Ifund portion of Unliquidated
   Obligations                                           1,613,272            403.461              15,800            1.011
Add - ~tioo 1598 Unliquidatffi
  Obligations                                            2,210,700             715,055           645,721          266,528           11.309

Total Suptrfund Unliquidated Obligations (~)      ,      3,823,972       ,   1.118,516    ,      661.S21      ,   267,539     ,     11.309




(a) Stttion 1595 rda~ to reimbursabl~ amounts from agmc~ om"" th an EPA.
(b) Stttioo 1596 rdat,," to Iloo-Suptrfund charg ...
(e) ~tiOll 1598 rdat.,; to charges that ar~ Supnfund sp«:ifie.
(d) Supnfund p==t:lg~ of IDlliquidatffi obligations u..,. calculated by di,;ding }"ar to wI<" SUP"Ifund
      direct labor by th~ tOfal direct I.:r.bor (Of ~ach ofth~ fiscal ~ars
(~) Rrl.:r.t.,; only to uuliquidated obligation, fur th~ fiscal }"'" indieatffi




                                                                             41

                  "'.                       ,       ,                                    ,
                                                                                         , :;
                                            •~ ,                                         , ,
                  g_~~~O'"
                  o~· ~~ ~ ~ ~ ~ ~
•
1
,
                  -"~";'; . . '" •
           lUi .... ... -.
                  _,"'\MM ''':t''' l!fg
                    "'Me' _
                  "'~        - . ... ..
                                -
                             'So "'         • !                                            ~

                                                                                             o.
                  C _
                   '          n
                              ;;
                                                                                                               1
                                                                                                                        •         -
                                                                                                                                  ,
                                                         -
                                                         •                                        "J
                                                                                                  ~j       ,~
                                                                                                               "
                                                                                                                        1i!~
                                                                                                                        ~
                                                                                                                        ~J~'P
                                                                                                                                  ..
                                                                                                                                ~ ;;-
                                                         i
                                                         o                        -
                                                                                  ~!i.
                                                                                   -
                                                                                  ••
                                                                                  0"
                                                                                  -
                                                                                    -             j~ l"] 8 Jj]11 ~
                                                                                                      - 's~. ill"
                                                                                                         0 .,"~
     ~
                                                         1 __ 0._                                 1   1
                                                                                                  " !1' " ~ "j2~
                                                                                                             Jj{
    ~~                                                   I   0_ ~_
                                                         · •.­-
                                                                     :>_ ~_   '                   ~-    0!.
                                                                                                  H ih I{h
                                                                                                          ""       !l
                                                                                                    1" 1... l'!
    oq •                                                     -   eo .....




                                                                                                                                        42

                                                         "
    ~S ~                                                 1
                                                         -                                        I,          !
    ~~ i                                                 •
                                                         I                                        1.i
                                                                                                  .~n-;
                                                                                                     "                  'J'I"
                                                                                                                        "      g, -
    .~
    ~~
         1
                                                    i
                                                    j
                                                    i3
                                                         ~ H§"g
                                                         ~ ''''', ~ "
                                                                                  I               ,
                                                                                                  ~
                                                                                                  ~ i
                                                                                                  I

                                                                                                          !    ~~
                                                                                                      1 :I I .. - a t "
                                                                                                             '"~
                                                                                                             ,",~.ip .j~
                                                                                                          ~-!~~~~~"i '
                                                                                                                          "8
                                                                                                                           1'
                                                                                                                        iii"
     ~                                                                                            ]i      :OJ: = ~]H ]
                       1 .,                         i '
                                                    , I                                           d       .el,:,,:g'\l~~~"'"
                     , .               1            •                                             E-lj 1           E~~:i~~
                                                    , i•                                          i !1lll'j i I !lll
                                                                                                            l:l~h
                , I."    1l        i   ,I
                                                    i    0
                                                                                      , '• j"Jj'
                                                                                      j
                                                                                      III , ..                          .
              ~ HHdHi 1IiI
                                                j                                            e-!:\
                                                                                      1-
                        ...   1" 1     1                                                     0    ~                     ~
                j
              I , I ! J l1 -
              l                                 I        I                            . II
                                                                                         •   •
                                                                                             •
                                                                                          Schfflul~
                                                                                          ScMduk 5

                               EPA BILLING SUMMARY
                     SUP ERFUND COSTS BY OBJEC T CLASSI FICATION
                     SUPERFUND           OBJECT         FICATION

                                             Sq>fnukr 30, :008
                                             Sq>femhrr 30. 200S




""""
"'"
           0eKriptj0n
           DrKription
                                Du~
                                ""~
                              Expm=
                              fupnlS<eS
                                                     -~
                                                     ==
                                                     In<hrO'r1

                                                    "Pm=
                                                                       Unliquidaud
                                                                       Un/iquidai<'d
                                                                      ObLiw;OIls (b)
                                                                      ObLi1!:alions
                                                                                            '"'"
 U      SaI.,ys
        Sa/Hs                 $8 ,426,071 (,)
                              $8A26.071 ("            $5.713 ,9]2
                                                      $5.713.9]2           $2,684,0]6
                                                                           $2.684.016     $ ]6,823 ,999
                                                                                          $16.S2H99


 " """fi"
        Ikntfil5                                       3.358 ,898
                                                       3.158.S9S               ]53,903
                                                                               153.903      3,5]2,80]
                                                                                            3.512.S01

        Tnvd
        Travd                    395 ,993
                                 395,993                  65,275
                                                          65.275                45,813
                                                                                45,S]3        507,08]
                                                                                              507.0SI
 "      Fmght
        Fr6ght                                            63.1 34
                                                          63.134                13,4 73
                                                                                ]3.473         76,607
                                                                                               76.607
 " ,=,                                                 2,932 ,035               74,082      3,0(6) 17
                                                                                            3.006,1] 7
 "                                                     2.932.035                74.082

        Printing                    6)56                    9,434                3,6]8
                                                                                 H]S            ]9,408
                                                                                                19.4{lS
 "                                  6,356                   9.434

        S=~=                      40)52
                                  4{lJ52                                       643,795
 "                                                     U83,377
                                                       I.IS3,377               643.795      1.&67)24
                                                                                            1.86732 4

        Supplie;
        Supplies                                         ] ]2,025
                                                         ]l2m5                  48,893
                                                                                48.S93        ]60,9]8
                                                                                              ]60.9IS
 "      Equ;pmmt
        Equipmmt                                          ]5,590
                                                          15.590              ]56.379
                                                                              156.379         ]71.969
 " ,-"                        $8 .868572
                              $S ,868 ,572          $ 13,453,680
                                                    $13,453.680            $3,823,972
                                                                           $3.S23.972     $26,146,22
                                                                                          $26.146,22 4




      a) Incllllks          dirttt labo<. ~ial maSln-s
     (;0) lndudts costs for di= t labo< , sptCia/ ma5l= and uptfT ",ime;"".
                                                            apt<! ",iDles"".
     (b) RtpUstnl5 w
     (b) R<lR ""'rs tht SuptrlUnd portioo of wiliquidaU<! damages
                                     portion ofwiliquidattddamagrs.




                                                       43

                                                                                                                    ScMdul~    6

                                                 EPA BILLING SUMMARY
                                        RECONCll-lATiON OF TOTAL ENRD EXPENSES




Obi'""!                    ",=,
                                ---Suptrl'und --
                                               ",,=,
                                                                Sq>tnnber 30, 2008

                                                                       ---N 011-Suptrfund--
                                                                      ",=,              lndi=:!
                                                                                                        ",,=,
                                                                                                        M<","
                                                                                                      1595 & 1596
                                                                                                                       ,..
                                                                                                                     Amo= ..
Cia..     o.,SCriptiOll   Expm=               &pm=                  ~"sc.              Expmsc.         Expmsc.
                                                                                                                       ''''
    U     Salaries        S8.426,071           $5.713 ,912         S32,14l'U44        $23 ,477 ,807      S13,940     $69,777 ,974

    12    B~lldil'                                 3.358,898                           13,999 ,8 ]9       ]0,647      17,369,364

    21    T"""l             395,993                   65,275         2)93,894             272,065        110,088       3,037,3 15

          Fr6ght                                      63.1 34                             263 .1 42                        326,276
    "     Ro n                                     2,932 ,035                          12,220,679                     15,152,714
    "                          6,356                   9,434            27)09                                               82,417
          Printing                                                                          39318
    "     Sn-\ices            40,152               1.183)77          2,576,372          4,932)01       3,188,969      11 ,921,171
    "                                                112,025                              466,921                          578,946
          Supplies
    "
,.. ;1    Equipmrn!

                          SS,868,572
                                                      15,590

                                             $ 13,453,680          S36,943,819
                                                                                            64,981

                                                                                     $55,737 ,033     $3.323.644
                                                                                                                            80,571

                                                                                                                    S118,326,748




                                                                   44

                                                                     APPENDIX VI

            SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                        AMOUNT               PAGE


  Other Direct Costs                                            2,488           14



TOTAL QUESTIONED COSTS                                        $2,488




______________________
        Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




                                           45

                                                                              APPENDIX VII

               ENRD’S RESPONSE TO THE DRAFT REPORT




   0
               ~




                                                           u.s. Department of Justice
      .
      .
      \
                .
              .,,                                          Environment and Natural Resources Divisiol
          ~ .,...,




ASJisrant Attornq G"nut</                                                            r ..lepholle (101) 5/1·]70,
950 Purnsy/"llnill AI'l'nu ... N. W.                                                  Fllcsimile (101) 514-055 ;
WlUllingron,lX 10SJO-(J(}(J1




                                                                  November 04, 2009


Raymond J. Beaudet
Acting Assistant Inspector General for Audit
Office of the Inspector General
1425 New York Avenue. N.W.
Washington, D.C. 20530


             Re:        Audit of Superfund Activities in ENRD for Fiscal Years 2006 through 2008


Dear Mr. Beaudet:

I am writing to thank you for the professional and careful audit work performed by staff fro m
the Office of the Inspector General ("OIG") during the recent audit of the Superfund program
in the Environment and Natural Resources Division (<<ENRD"), and to address the draft audit
report's recommendations. For the past 20 years, ENRD has relied on your office to provide
sound advice to help ensure that our accounting systems and operations meet rigorous
standards for qUality. Through the constructive process of regular audits, ENRD has
strengthened its accounting, which has helped the government recover hundreds of millions
of dollars in cost recovery litigation over the years. These audits are instrumental in
maintaining the integrity. reliability and accountability of the Division's Superfund program.
We greatly appreciate the role that the DIG plays in this process. We also appreciate the
opportunity to review this speci fic draft report and to respond to the recommendations.

The objective ofthis audit was to detennine if the cost allocation process used by ENRD and
its contractor provided an equitable distribution of total labor costs, other direct costs, and
indirect costs to Superfund cases during the subject fiscal years. We are pleased with DIG's
conclusion that "ENRD provided an equitable distribution of total labor costs, other direct
costs, and indirect costs to Superfund cases during FYs 2006, 2007 and 2008." We also are
pleased to learn that your review did not identify any instances of non-compliance with the
Comprehensive Environmental Response, Compensation and Liability Act of 1980 (known
as "CERCLA" or "Superfund"), the law under which this audit is being conducted.



                                                   46

Overall. we agree with the findings and conclusions deS'-Tibed in the draft audit repon.
Listed below are the audit recommendations followed by the Environment Division's
responses.

RECOMMENDAT ION #1 : RcinfO£cc policies and procedures to managers and employees
for submitling complete and accurate travel authorizations and voucher summaries.

        RESPONSE: We coneur with Ihis recommend~ lion. We provide a basic gove rn ment
        tr~vel  training seminur for all new EN RD allorneys, and we intend to expand on that
        traini ng. As such, we have developed and I will disseminate to all ENRD employees
        a Power Point training module which directly addresses "Recommendation # I" of the
        subject audit report. We have ineluded hard copies of our traini ng slides with this
        memorandum. Fun hemlOre. we have begun to present this training live at regularly­
        scheduled section meetings. We plan to deliver our presenlation to all ENRD
        sections in the upcoming months. Finally, I have personally reminded ENRD
        managers of their responsibility to comply with DO] travel regulations.

RECOMMENDAT ION #2: Remedy the S2,488 in unsupported travel costs.

        RESPONSE: We concur with this recommendation. The OIG identified eleven (II)
        travel vouchers which lacked sufficienl documemation to support the expenses
        idenlified on the vouchers. We have been able to locate supporting documentation
        for the I I discrepancies. To substantiate the amounts, we are able to provide credit
        card statements, eredit card transaction history reports, or (in the case of multiple taxi
        cab fares which added up to an amount greater than S75 ) a documented statement
        from the traveler. For only one voucher (#338227 12. which had S30 in unsupported
        train fare) were we unable to locate backup documentation to validate the amount on
        the voucher. For this outstanding discrepancy, the traveler offered to reimburse the
        government for the unsubstantiated $30, We have auached 10 this memorandum the
        support ing documentation responsive to this aud it recommendation,

RECOMMENDATION #3: Ensure that travel voucher numbers 38 17840 and 38126 128 are
allocaled to the correct Supcrfutxl case number.

       RESPONSE: We concur with IhlS recommendatIOn The two travel vouchers which
       were incorrectly posted to the wrong OJ Nu mber in the Department's Financial
       Management Infonnation System C'FMIS") have been corrected. The data in FM IS
       now renects the appropriate D1 Number. As auachments to this memorandum, we
       h,we provided oblig:ltionJpayment    histo~y   reports from FM IS for these two travel
       vouchers, documenting the corrections which have been made.


The Environment Division is committed to maintaining a reliable and efficient system for
allocating Superfund costs. This audit, as well as ENRD's responses to the O IG's findings
and recommendations as outlined above, significantly benefit the governme nt's efforts to
recover federal funds spent 10 clean the en vironment. hi th is era of light budgets, we very



                                               ·1·




                                                47

much appredale the lnsp«:tor General's willingness to conduct audi ts of the Superfund
program. Should you or your staff require further infonnation, please feel free to contact
ENRD's Executive Officer, Robert Bmffy on 616-3147, or ENRD's Comptroller, Andrew
Collier on 616-3359.



                                            Sincerely.




                                            Acting ASSIstant  orney General
                                            Environment and Natural Resources Division


Enclosures




                                            -J -




                                               48

                                                          APPENDIX VIII

  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the ENRD for its review
and comment. The ENRD’s response is incorporated in Appendix VII of this
report. The following provides the OIG’s analysis of the response and
summary of actions necessary to close the report.

Recommendations

   1. Resolved. The ENRD concurred with our recommendation to reinforce
      the procedures for submitting accurate and complete travel
      authorizations and vouchers. The ENRD plans to expand its basic
      government travel training seminar for all new ENRD attorneys by
      distributing to all employees a Power Point training module that
      directly addresses the deficiencies we noted in our audit. In addition,
      the ENRD has started presenting the new training module at regularly
      scheduled section meetings. This recommendation can be closed when
      the ENRD provides documentation demonstrating that the new training
      module has been provided to all ENRD sections.

   2. Resolved. The ENRD concurred with our recommendation to remedy
      the $2,488 in unsupported travel costs. In its response, the ENRD
      submitted receipts, bank and credit card statements, supplemental
      vouchers, and copies of communications from travelers for the
      11 travel vouchers related to the unsupported travel expenses. For
      9 of the 11 instances of unsupported costs, the ENRD provided
      sufficient documentation to resolve our concerns. However, for the
      remaining two items we need additional supporting documentation in
      order to close this recommendation.

      This recommendation can be closed we receive documentation from
      the ENRD showing that the employee reimbursed DOJ for the $30 in
      unsupported travel expenses on voucher number 3822712. In
      addition, for voucher number 38129178, the ENRD must provide
      detailed documentation of the $159 expense.

   3. Closed. The ENRD concurred with this recommendation and in its
      response provided obligation/payment history reports that document
      the corrections made to the accounting records.




                                     49

